CERTIFICATE OF COMPLIANCE
NO. 20-1120
MELISSA BELGAU, ET AL.,
Petitioners,
v.
JAY INSLEE, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF THE
STATE OF WASHINGTON, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of Amici Curiae Washington State
Legislators in Support of Petitioner contains 4,215 words,
excluding the parts of the brief that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on March 18, 2021.

Harry J. F. Korrell
Counsel of Record

